                   Taxpayer Experience at the Taxpayer
                  Assistance Centers Could Be Improved

                                 September 2004

                       Reference Number: 2004-40-152




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                   September 1, 2004


      MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Taxpayer Experience at the Taxpayer
                                    Assistance Centers Could Be Improved (Audit # 200440032)


      This report presents the results of our review of the Internal Revenue Service’s (IRS)
      responses to taxpayers’ tax law questions. The overall objective of this review was to
      determine whether the IRS provided accurate and timely responses to taxpayers’ tax
      law questions during the 2004 Filing Season.1 In addition, we assessed whether IRS
      employees were professional and courteous to auditors that made anonymous visits to
      the Taxpayer Assistance Centers (TAC). We also evaluated whether TAC addresses
      and office hours made available to taxpayers were accurate, IRS employees adhered to
      operating guidelines on referral procedures, and all taxpayers were provided an
      opportunity to participate in the customer satisfaction survey at the TACs.
      Providing quality customer service is the IRS’ first step to taxpayer compliance. One of
      the IRS’ major strategies for Fiscal Year (FY) 2004 is to reduce taxpayer burden by
      improving the quality and efficiency of service delivery. Taxpayers have several options
      from which to choose when they need assistance from the IRS; these options include
      walk-in service at the TACs. According to the IRS, the TACs served approximately
      3.8 million taxpayers during the period January through April 2004. Approximately
      794,170 of these taxpayers visited the TACs for assistance with the tax law.
      Taxpayers did not always receive accurate answers to their tax law questions when
      visiting the TACs. IRS employees correctly answered 67 percent of the 250 in-scope2
      tax law questions auditors asked during the 2004 Filing Season. Although this is an



      1
       The period January through mid-April when most individual income tax returns are filed.
      2
       IRS employees are trained and authorized to answer tax law questions related to specific tax topics as long as they
      are within their expertise and training; these are called in-scope questions.
                                                          2

increase from the 51 percent accuracy rate we reported for the 2002 Filing Season, it is
a decrease from the 70 percent accuracy rate reported for the 2003 Filing Season.
IRS employees were professional and courteous in 122 (98 percent) of 125 TACs
visited; however, the TACs may not provide all of the services taxpayers expect and
may not be open during the hours expected.
The IRS web site, IRS.gov, states, “IRS Taxpayer Assistance Centers are your one-stop
resource for face-to-face tax help and solutions to tax problems, every business day.”
Because of the complexity of the tax law and the number of taxpayers the IRS serves,
not all IRS employees can be trained and be experts on all tax topics and provide all tax
services. Yet the IRS has not adequately educated taxpayers on what services are
offered at the TACs, creating a burden for those taxpayers that visit a TAC asking
questions on tax law topics that are out of the scope of IRS employees’ training and
authorization. In fact, IRS employees provided answers to 31 (32 percent) of
98 out-of-scope questions3 they were not trained or authorized to answer. This
increases the risk that taxpayers will receive inaccurate answers to their questions.
Although most addresses for the TACs visited were correct, only 43 (68 percent) of the
63 TACs visited had hours of operation that matched those posted on IRS.gov or
provided through the toll-free telephone numbers. In addition, auditors were not offered
a Customer Survey Comment Card for 47 (38 percent) of 125 visits. The IRS uses
Comment Cards to obtain taxpayers’ feedback regarding the quality of customer service
they receive at the TACs.
Beginning in October 2002, the IRS instituted a Quality Assurance Program for the
TACs that should help identify ways to improve the accuracy and quality of its work
processes. In addition, in FY 2004, it is revising the system to incorporate the
Embedded Quality Measurement System used in other Wage and Investment Division
offices and functions and will be soon piloting the use of Contact Recording, an
automated quality monitoring system that captures voice elements of customer contacts
and employees’ corresponding computer desktop activities, including customer account
activity. We plan to conduct a review of the system in FY 2005.
We recommended the Commissioner, Wage and Investment Division, ensure that, as
the Quality Assurance Program is being revised, ways are identified to improve work
processes and the quality of the taxpayer experience when visiting the TACs. The
Commissioner should ensure IRS.gov and publications used to educate and inform
taxpayers on how to obtain tax assistance from the IRS provide a clear explanation of
the services offered at the TACs. The Commissioner should also consider providing a
list of tax law topics answered by TAC employees or training screeners to explain to
taxpayers what tax law questions TAC employees can answer.
Management’s Response: IRS management agreed with two of our three
recommendations and our reported outcome. The IRS has implemented the Embedded

3
 In addition to the 125 visits for tax law questions, auditors completed visits to 29 additional TACs and asked
98 questions that were beyond the IRS employees’ level of training.
                                            3

Quality Measurement System to measure individual and organizational performance of
the TACs. This measurement system will be used to provide feedback to employees
and identify trends, training needs, and other changes needed to improve work
processes. In addition, the IRS plans to determine the feasibility of implementing our
recommendation to provide a clear explanation of services offered at the TACs on
IRS.gov and in publications. If feasible, the IRS will add information on services
provided at the TACs to IRS.gov and Your Federal Income Tax for Individuals
(Publication 17).
The IRS does not agree with our recommendation to provide taxpayers with a list of tax
law topics answered by TAC employees or training screeners to explain to taxpayers
what tax law questions TAC employees can answer due to the potential perceptions
that may be generated by doing so. For example, management believes providing a list
of tax law topics to customers may give the appearance that customers must determine
on their own the types of services the IRS provides rather than being assisted by
TAC employees. In addition, management believes customers are unlikely to read a list
containing tax law topics.
Management continues to disagree with our method of reporting referrals to publications
and service denied when computing the accuracy rate. As such, they do not believe our
reported accuracy rate is a true measure of the quality of responses provided by the
IRS. Management’s complete response to the draft report is included as Appendix VIII.
Office of Audit Comment: We understand the IRS’ past experience has shown that
taxpayers do not read signs displayed in the TACs. However, we still believe that the
IRS should pursue having greeters ask taxpayers questions to determine their specific
tax law issue. At a minimum, the greeters could determine if the tax law issue related to
individual or business taxes, estate or trust taxes, etc. This action would prevent some
taxpayers from having to wait before being informed that their questions cannot be
answered by TAC employees. While we still believe our recommendation is worthwhile,
we do not intend to elevate our disagreement concerning it to the Department of the
Treasury for resolution.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 927-0597.
        Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved




                                                 Table of Contents


Background ............................................................................................... Page 1
Taxpayers Do Not Always Receive Correct Answers to
Tax Law Questions.................................................................................... Page 4
         Recommendation 1: .......................................................................Page 9

Taxpayers Do Not Always Experience One-Stop Quality
Customer Service When Visiting Taxpayer Assistance Centers ............... Page 9
         Recommendations 2 and 3: ...........................................................Page 13

Appendix I – Detailed Objectives, Scope, and Methodology ..................... Page 15
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Outcome Measures............................................................ Page 18
Appendix V – Accuracy Rates for States Visited During the
2004 Filing Season.................................................................................... Page 19
Appendix VI – Accuracy Rates by Geographical Area
January Through April 2004 ...................................................................... Page 20
Appendix VII – Accuracy Rates by Tax Law Topic
January Through April 2004 ...................................................................... Page 21
Appendix VIII – Management’s Response to the Draft Report .................. Page 22
      Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                Providing quality customer service is the Internal Revenue
Background
                                Service’s (IRS) first step to taxpayer compliance. One of
                                the Congress’ principal objectives in enacting the IRS
                                Restructuring and Reform Act of 1998 (RRA 98)1 was to
                                mandate that the IRS do a better job of meeting the needs of
                                its customers. In the RRA 98, the Congress directed the
                                IRS to achieve a better balance between its postfiling
                                enforcement efforts and prefiling taxpayer assistance
                                through education and service. To comply with this
                                Congressional mandate, the IRS revised its mission
                                statement to refocus its emphasis on helping taxpayers
                                understand and meet their tax responsibilities.
                                The quality of service provided to taxpayers remains among
                                the major management challenges the IRS faces in
                                Fiscal Year (FY) 2004. One of the IRS’ major strategies for
                                FY 2004 is to reduce taxpayer burden by improving the
                                quality and efficiency of service delivery. Taxpayers have
                                several options from which to choose when they need
                                assistance from the IRS. These options include walk-in
                                service at the Taxpayer Assistance Centers (TAC), toll-free
                                telephone assistance, and the IRS Internet site, IRS.gov.
                                The complexity of the tax law has made it even more
                                important that the IRS ensure these services are available to
                                all taxpayers. The IRS is committed to providing
                                top-quality service to taxpayers, as shown by the IRS Field
                                Assistance (FA)2 Office’s mission to minimize the burden to
                                customers in satisfying their tax obligations by providing
                                the right services at the right location at the right time. The
                                FA Office has overall responsibility for the 403 TACs in
                                7 geographical areas located throughout the United States.
                                To accomplish its mission, the FA Office provides
                                professional assistance, education, and compliance services
                                to customers that desire face-to-face interaction. IRS
                                employees that work in the TACs assist customers by
                                interpreting tax laws and regulations, preparing some tax
                                returns, resolving inquiries on taxpayer accounts, and
                                providing various other services designed to minimize the

                                1
                                  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered
                                sections of 2 U.S.C., 5 U.S.C. app., 16 U.S.C., 19 U.S.C., 22 U.S.C.,
                                23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
                                2
                                  The FA Office is a business unit within the Wage and Investment
                                Division Customer Assistance, Relationships, and Education function.
                                                                                                Page 1
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          burden on taxpayers in satisfying their tax obligations.
                          Operating guidelines require IRS employees to identify
                          themselves, provide their identification number either
                          verbally or visually to all taxpayers, and assist taxpayers in
                          a professional and courteous manner.
                          According to the IRS, the TACs served approximately
                          3.8 million taxpayers during the period January through
                          April 2004. Approximately 794,170 of these taxpayers
                          visited the TACs for assistance with the tax law.3 Figure 1
                          shows the percentage of time spent by employees in the
                          TACs on the various services detailed above.
                                Figure 1: Percentage4 of Time Spent by IRS Employees
                                           in the TACs Assisting Taxpayers
                                                         8%

                                        17%                                   23%




                                     21%

                                                                        32%
                                  Taxpayer Accounts            Providing Forms
                                  Tax Law Questions            Other Contacts
                                  Tax Return Preparation

                          Source: The IRS FA Office.

                          Because of the complexity of the tax law and the need to
                          serve millions of taxpayers with tax law questions, TAC
                          employees are not trained to answer all types of tax law
                          questions. Instead, they are trained and authorized to
                          answer tax law questions related to specific tax topics as
                          long as they are within their expertise and training. These
                          are called in-scope questions; they include specific tax law
                          topics related to lines on the U.S. Individual Income Tax
                          Return (Form 1040), such as income, filing status,
                          exemptions, deductions, and related credits.

                          3
                            The IRS provided the number of taxpayers that visited the TACs for
                          assistance with tax law and the percentage of work shown in Figure 1.
                          We did not verify the accuracy of the numbers.
                          4
                            Percentages do not add to 100 due to rounding.
                                                                                         Page 2
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          When assisting taxpayers, IRS employees must first
                          determine if the tax law questions are in-scope. If the
                          questions are in-scope, the employees are required to use the
                          Publication Method Guide to provide the answers. The
                          Guide is a tool to guide IRS employees through the complex
                          maze of tax laws and computations.
                          When receiving out-of-scope questions, IRS employees are
                          required to offer to call the appropriate IRS toll-free
                          telephone number on behalf of the taxpayers or to submit
                          the questions in writing to a subject-matter expert(s) via the
                          IRS Internet (R-mail). Questions submitted via R-mail are
                          assigned to employees, and taxpayers are to receive
                          responses within 15 business days.
                          We conducted this audit in the IRS Customer Assistance,
                          Relationships, and Education function in the Wage and
                          Investment (W&I) Division during the period January
                          through May 2004. During the period January through
                          April 2004, Treasury Inspector General for Tax
                          Administration (TIGTA) auditors made 125 anonymous
                          visits asking 2 questions each at 63 TACs located in
                          22 states. See Appendix V for specific states visited. In
                          addition, auditors completed visits to 29 TACs and asked
                          98 questions outside the scope of topics employees were
                          trained to answer. Auditors presented scenarios around
                          specific tax topics designed to require IRS employees to ask
                          questions, for example, to determine taxpayers’ eligibility
                          for deductions and credits.
                          This review was conducted in accordance with Government
                          Auditing Standards. Detailed information on our audit
                          objectives, scope, and methodology is presented in
                          Appendix I. Major contributors to the report are listed in
                          Appendix II.




                                                                                  Page 3
       Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                 Of the 250 in-scope tax law questions auditors asked during
Taxpayers Do Not Always
                                 the 2004 Filing Season5 review, IRS employees correctly
Receive Correct Answers to Tax
                                 answered 67 percent6 and incorrectly referred only 2 percent
Law Questions
                                 to publications.7 Figure 2 shows the breakdown of the
                                 accuracy rates for this period. See Appendix VII for results
                                 by tax law topic. The IRS’ FY 2004 accuracy rate goal for
                                 the TACs is 80 percent.
                                            Figure 2: Responses to Tax Law Questions (250)

                                                              Correctly
                                                              Answered                               Ref.      Service
                                                 Correctly       but      Correctly   Incorrectly     to         Not
                                                 Answered    Incomplete   Referred8    Answered      Pub.     Provided9

                                     Responses     148           20           18           53         4          7
                                 Percentages    59%            8%         7%         21%             2%         3%
                                 Source: Anonymous visits performed by TIGTA auditors.

                                 Although this is an increase from the 51 percent accuracy
                                 rate we reported for the 2002 Filing Season, it is a decrease
                                 from the 70 percent accuracy rate reported for the
                                 2003 Filing Season. Figure 3 shows the comparison of the
                                 results for Filing Seasons 2002, 2003, and 2004.




                                 5
                                   The period from January through mid-April when most individual
                                 income tax returns are filed.
                                 6
                                   The accuracy rate includes “Correct” and “Correct but Incomplete”
                                 responses.
                                 7
                                   The IRS employee did not answer the question but referred the auditor
                                 to a publication. According to FA Office management, referring
                                 taxpayers to a publication is considered an improper procedure.
                                 8
                                   No answer was provided, but in each instance the IRS employee
                                 offered to refer the auditor to the IRS toll-free tax law telephone number
                                 to obtain an answer to the question. According to FA operating
                                 guidelines, IRS employees should refer in-scope questions if they have
                                 not been trained to answer the question.
                                 9
                                   The IRS employee did not answer the question because he or she was
                                 not qualified, did not have enough time since the TAC was closing soon,
                                 or was not available to answer the question.
                                                                                                    Page 4
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                         Figure 3: Comparison of Accuracy Rates for
                                             Filing Seasons 2002, 2003, and 200410

                                           70%


                                           60%


                                           50%


                                           40%


                                           30%


                                           20%


                                           10%


                                            0%
                                                    Correctly    Correctly    Incorrectly   Incorrectly
                                                                                                          Service Not
                                                    Answered    Referred to   Answered      Referred to
                                                                                                           Provided
                                                    Questions    Toll-Free     Questions    Publication
                               Filing Season 2002     51%          0%            29%           20%           1%
                               Filing Season 2003     70%          1%            26%           3%            0%
                               Filing Season 2004     67%          7%            21%           2%            3%

                          Source: TIGTA reviews conducted during the period January through
                          April 2002, 2003, and 2004.

                          There has been a significant decrease in the Referred to
                          Publication responses, yet TIGTA auditors have had a
                          slight increase in the number of instances in which IRS
                          employees did not provide service. For 5 (71 percent) of
                          the 7 questions for which auditors were not provided
                          service, IRS employees did not follow existing referral
                          procedures. The IRS has made a business decision to close
                          the TACs, in most cases, promptly at the advertised time,
                          which avoids overtime costs. If there are taxpayers that
                          have not been served, employees are instructed to refer
                          taxpayers to the toll-free telephone numbers. However,
                          auditors visited a TAC near closing time and were advised
                          that they would have to return another day during normal
                          business hours. For the other two questions, the TAC was
                          only accepting payments on the date of the auditor’s visit.



                          10
                            The accuracy rates in the graph represent percentages and include
                          “Correct” and “Correct but Incomplete” responses. Percentages may not
                          add to 100 due to rounding.
                                                                                                          Page 5
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          In addition, the IRS experienced minimal improvement in
                          the number of incorrect responses. As reported in prior
                          reviews, incorrect answers occur mainly because the
                          employees do not use the tools provided them and do not
                          ask questions sufficient to answer the taxpayers’ questions
                          correctly.
                          Taxpayers have a higher chance of receiving accurate
                          answers when IRS employees follow required
                          procedures
                          Accuracy rates decrease when IRS employees do not use the
                          Publication Method Guide, available tax instructions, and
                          publications to assist them in answering taxpayers’
                          questions. IRS employees used available tax instructions or
                          publications when answering 196 (78 percent) of the
                          250 questions asked, with an accuracy rate of 73 percent. In
                          contrast, the accuracy rate was only 46 percent when tax
                          instructions or publications were not used.11
                          Figure 4 shows the accuracy rates for tax law questions
                          when IRS employees did and did not use tax instructions or
                          publications when providing assistance to our auditors.
                               Figure 4:12 Responses to Questions for Which Employee Use of
                               Instructions, Forms, and Publications Were Documented (250)

                           Use of                                                          Ref.   Service
                           Form/        Questions   Correctly    Correctly   Incorrectly   to     Not
                           Pub          Answered    Answered     Referred    Answered      Pub    Provided
                               Used        196         73%         3%           24%        0%       0%
                           Not Used      54          46%         24%         9%            7%       13%
                          Source: Anonymous visits performed by TIGTA auditors.

                          IRS employees are required to use the Publication Method
                          Guide or obtain the appropriate publication, discuss specific
                          information related to the topic, ask appropriate questions to
                          obtain facts when assisting a taxpayer, and then respond to
                          the taxpayer’s issue or question.




                          11
                             The 73 percent and 46 percent accuracy rates include “Correct” and
                          “Correct but Incomplete” responses.
                          12
                             Percentages may not add to 100 due to rounding.
                                                                                           Page 6
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          Taxpayers have a higher chance of receiving accurate
                          answers when IRS employees ask probing questions to
                          obtain relevant facts from the taxpayers
                          IRS employees continue to assist taxpayers without asking
                          all the probing questions outlined in the Publication Method
                          Guide or using the tax instructions or publications. The risk
                          that taxpayers will receive inaccurate answers is increased
                          when IRS employees do not ask all questions to obtain
                          relevant facts.
                          •   Forty-seven (87 percent) of 54 questions for which IRS
                              employees asked all probing questions outlined in the
                              tax instructions and publications were correctly
                              answered.
                          •   Three (11 percent) of 28 questions for which IRS
                              employees did not ask any probing questions were
                              correctly answered.
                          Each scenario was designed and presented to ensure IRS
                          employees probe or ask specific questions to ensure they
                          have all the necessary information to answer the questions.
                          While all the probes may not have been necessary to
                          provide a correct answer, certain probes provide key
                          information needed to ensure all relevant facts were
                          obtained from the taxpayer. For example:
                          •   For 12 (41 percent) of 29 dependent questions, IRS
                              employees did not ask the auditors if they had valid
                              Social Security Numbers. For a taxpayer to claim
                              someone as a dependent, the person must have a valid
                              Social Security Number.
                          •   For 13 (65 percent) of 20 scholarship questions,
                              IRS employees did not ask the auditors the amounts of
                              the scholarships received. Scholarship money received
                              is taxable only if the amount of the scholarship exceeds
                              the cost of tuition, fees, and books.
                          When not using available resources to ask all required
                          questions, IRS employees are making assumptions and
                          providing answers without considering facts relevant to
                          ensuring the answers given are correct.



                                                                                 Page 7
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          Taxpayers that visit the TACs in certain geographical
                          locations may receive inconsistent levels of customer
                          service
                          The TAC location affects overall accuracy rates. Results
                          from the TACs visited in 7 areas in 22 states during the
                          period January through April 2004 showed the following:
                          •    Seventy-eight (72 percent) of 108 questions asked in
                               Areas 3, 5, and 7 were correctly answered.13
                          •    Forty-four (61 percent) of 72 questions asked in Areas 1
                               and 2 were correctly answered.14
                          •    Four (57 percent) of 7 questions for which service was
                               not provided occurred in Area 4,15 compared to 2 in
                               Area 1 and 1 in Area 2.
                          See Appendices V and VI for accuracy rates by state and
                          geographical area.
                          The burden on taxpayers is increased when they rely upon
                          the IRS to help them comply with the tax law and they are
                          not provided correct responses to tax law questions.
                          Additionally, helping taxpayers understand and meet their
                          tax obligations is essential to voluntary compliance. Given
                          the complexity of the tax law, it is essential that the IRS
                          ensure FA employees understand the significance of their
                          role in the tax system and the importance of correctly
                          applying the tax law.
                          If the accuracy results for the 250 questions asked between
                          January and April 2004 are indicative of the actual
                          responses taxpayers receive when they visit a TAC, an
                          estimated 53 taxpayers could have received incorrect
                          responses to tax law questions. Also, approximately
                          794,170 taxpayers that visited the TACs during the period
                          January through April 2004 to ask tax law questions were at
                          risk of receiving incorrect responses to their tax law
                          questions.

                          13
                             Area 3 states visited were Alabama, Florida, and Georgia. Area 5
                          states visited were Missouri, North Dakota, and Texas. Area 7 state
                          visited was California.
                          14
                             Area 1 states visited were Maine, Massachusetts, New Hampshire,
                          New York, and Vermont. Area 2 states visited were New Jersey,
                          North Carolina, and Virginia.
                          15
                             Area 4 states visited were Illinois, Indiana, and Kentucky.
                                                                                         Page 8
        Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                  The IRS should ensure employees are properly trained on
                                  the tax law as well as on the importance of using all
                                  available tools and resources to answer tax law questions.
                                  Beginning in October 2002, the FA Office instituted a
                                  Quality Assurance Program for the TACs that should help
                                  identify ways to improve the accuracy and quality of its
                                  work processes. In addition, in FY 2004, it is revising the
                                  system to incorporate the Embedded Quality (EQ)
                                  Measurement System used in other W&I Division offices
                                  and functions and will be soon piloting the use of Contact
                                  Recording. Contact Recording is an automated quality
                                  monitoring system that captures voice elements of customer
                                  contacts and employees’ corresponding computer desktop
                                  activities, including customer account activity. We plan to
                                  conduct a review of the system in FY 2005.

                                  Recommendation

                                  The Commissioner, W&I Division, should:
                                  1. Ensure that as the Quality Assurance Program is being
                                     revised management identifies ways to improve work
                                     processes and the quality of the taxpayer experience
                                     when visiting the TACs.
                                  Management’s Response: The IRS has implemented EQ to
                                  measure individual and organizational performance of the
                                  TACs. EQ is a standardized managerial review process that
                                  uses a common set of evaluation standards to provide
                                  feedback to employees and identify trends, training needs,
                                  and other changes needed to improve work processes.
                                  IRS employees were professional and courteous in
Taxpayers Do Not Always
                                  122 (98 percent) of 125 TACs visited. In addition,
Experience One-Stop Quality
                                  addresses were posted on IRS.gov for all 63 TACs visited.
Customer Service When Visiting
                                  Addresses matched those16 posted at the TACs for
Taxpayer Assistance Centers
                                  52 (85 percent) of 6117 TACs. However, the TACs may not
                                  provide all the services taxpayers expect and may not be
                                  open during the hours posted.



                                  16
                                     The difference in addresses related to incorrect street names or the
                                  omission of building names and room numbers.
                                  17
                                     Percentage based on 61instead of 63 TACs because the address was
                                  not posted at 2 TACs.
                                                                                                   Page 9
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          IRS.gov states, “IRS Taxpayer Assistance Centers are your
                          one-stop resource for face-to-face tax help and solutions to
                          tax problems, every business day.” Yet the IRS does not
                          provide unlimited tax help at its TACs. Because of the
                          complexity of the tax law and the number of taxpayers the
                          IRS serves, not all IRS employees can be trained and be
                          experts on all tax topics and provide all tax services.
                          However, the IRS has not adequately educated taxpayers on
                          what services are offered at the TACs, creating a burden for
                          those taxpayers that visit a TAC asking questions on tax law
                          topics that are out of the scope of the IRS employees’
                          training and authorization. In addition, the IRS does not
                          ensure office hours are current on its systems accessed via
                          IRS.gov or the toll-free telephone numbers.
                          Taxpayers may not be able to obtain answers to tax law
                          questions when visiting the TACs, or employees may
                          provide answers to questions for which they are not
                          trained
                          Taxpayers may not be aware that IRS employees are not
                          trained to answer questions on all tax topics. The IRS offers
                          assistance through, for example, toll-free telephone
                          numbers, walk-in services, and IRS.gov. It educates
                          taxpayers on these services, for example, through various
                          publications and IRS.gov. However, IRS.gov, Your Federal
                          Income Tax for Individuals (Publication 17), and IRS Guide
                          to Free Tax Services (Publication 910) do not state that the
                          TACs cannot provide answers to all tax law questions.
                          When taxpayers walk into a TAC, they use the Q-MATIC18
                          system to select the type of assistance desired (e.g., return
                          preparation, tax law question, account inquiry, payment). In
                          some larger TACs, IRS employees called screeners
                          determine the reason for a taxpayer’s visit and make the
                          Q-MATIC system choice for the taxpayer. Once a choice is
                          made, the taxpayer is issued a number and waits for
                          assistance until the number is called.
                          However, taxpayers that visit a TAC may experience an
                          unnecessary wait time for assistance only to find the
                          employees are not trained to answer their questions. During
                          the filing season, in particular, taxpayers can have long wait

                          18
                             The Q-MATIC system is an automated queuing system to control the
                          flow of taxpayers waiting for assistance.
                                                                                     Page 10
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          times from the time they walk in until they reach an assistor.
                          In 22 (18 percent) of 125 visits made during the 2004 Filing
                          Season, auditors had wait times greater than 30 minutes.
                          Regardless of whether taxpayers use the Q-MATIC system
                          or screeners determine the reasons for the visits, taxpayers
                          are not usually advised that the employees assisting them in
                          the TACs are limited to specific tax topics when answering
                          questions. It is usually only after taxpayers ask assistors
                          their specific tax questions that they are informed their
                          questions are out of the scope of the employees’ training.
                          At that time, IRS employees offer to call the toll-free
                          telephone number and let the taxpayer speak with an
                          employee trained in the tax law topic.
                          In some instances, employees may answer taxpayers’
                          questions even though they have not been trained or
                          authorized to answer questions on the specific tax topic.
                          During the 2004 Filing Season review, IRS employees
                          provided answers to 31 (32 percent) of 98 out-of-scope
                          questions they were not trained or authorized to answer.
                          This increases the risk that taxpayers will receive inaccurate
                          answers to their questions. Figure 5 provides a breakdown
                          of employees’ answers to tax law questions beyond their
                          level of training.
                          Figure 5: Responses to Out-of-Scope Tax Law Questions (98)19

                                                                 Questions Answered20
                                         Correctly
                                         Referred                                       Ref. to
                                                         Correct         Incorrect
                                                                                        Pub.
                           Responses        67              12               7             12
                          Percentages    68%             39%            23%               39%
                          Source: Anonymous visits performed by TIGTA auditors.

                          The IRS does not want employees in the TACs to answer
                          tax law questions beyond their skill level or for which they
                          have not been trained. This reduces employee assumptions
                          and the risk that taxpayers will receive incorrect answers to
                          their questions. Employees are not expected to be experts in

                          19
                            Percentages do not add to 100 due to rounding.
                          20
                            The IRS employee in the TAC should have referred the out-of-scope
                          question to a toll-free telephone number or R-mail, but instead the IRS
                          employee provided an answer. The percentages under “Questions
                          Answered” are based on 31, which is the number of questions answered.
                                                                                        Page 11
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          all aspects of tax law. According to FA Office
                          management, experienced employees are more likely to
                          answer out-of-scope questions because they believe they
                          know the correct answers and feel obligated to answer.
                          Taxpayers visiting the TACs may not find the offices
                          open
                          Most addresses for the TACs visited matched the addresses
                          posted on IRS.gov and through the toll-free telephone
                          numbers. However, only 43 (68 percent) of the 63 TACs
                          visited had hours of operation that matched those posted on
                          IRS.gov and provided through the toll-free telephone
                          numbers. The National Taxpayer Advocate has also
                          reported to the Congress that taxpayers continue to
                          complain that TACs were closed on the date visited.21
                          Taxpayers can access IRS.gov and follow links to obtain the
                          addresses and office hours of the TACs located in their
                          states. Taxpayers that do not have access to the Internet
                          may call the IRS toll-free telephone numbers or automated
                          telephone messaging systems at the TACs to obtain this
                          information. The FA Office operating procedures require
                          TAC managers to ensure TAC hours provided to taxpayers
                          via IRS.gov and toll-free telephone numbers are accurate
                          and timely updated.
                          Auditors were not always offered Customer Survey
                          Comment Cards
                          For 61 (97 percent) of 63 TACs visited during the period
                          January through April 2004, auditors observed that
                          Customer Survey Comment Cards were available for
                          taxpayers. However, for 47 (38 percent) of the 125 visits,
                          auditors were not offered a Comment Card. The IRS
                          developed Comment Cards to obtain feedback on the quality
                          of service received at the TACs. Each TAC should have
                          Comment Cards available for all taxpayers that visit the
                          TACs for assistance, and IRS employees are required to
                          offer a Comment Card to every taxpayer who is provided
                          with face-to-face service.
                          Taxpayers have the option to complete the Comment Card
                          and place it in secure drop boxes located in the TACs.

                          21
                            National Taxpayer Advocate 2003 Annual Report to Congress
                          (dated December 31, 2003).
                                                                                    Page 12
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          Comment Cards are forwarded to an independent contractor
                          the IRS hired to collect and summarize taxpayer feedback.
                          While completing the Comment Card is voluntary, IRS
                          employees that do not follow procedures to offer taxpayers
                          Comment Cards limit opportunities for a broader depiction
                          of how satisfied taxpayers are with the quality of service at
                          the TACs.

                          Recommendations

                          The Commissioner, W&I Division, should:
                          2. Ensure IRS.gov and publications used to educate and
                             inform taxpayers on how to obtain tax assistance from
                             the IRS provide a clear explanation of the services
                             offered at the TACs.
                          Management’s Response: The IRS plans to determine the
                          feasibility of implementing this recommendation. If
                          feasible, the IRS will add information on services provided
                          in the TACs to IRS.gov and Publication 17. The IRS will
                          also include information on the web site and in
                          Publication 17 stating the IRS will refer customers to the
                          appropriate function for assistance with services that are
                          outside the scope of services provided in the TACs.
                          3. When taxpayers visit the TACs, consider providing
                             them a list of tax law topics answered by TAC
                             employees or training screeners to explain to taxpayers
                             what tax law questions TAC employees can answer.
                          Management’s Response: The IRS does not agree with this
                          recommendation due to the potential perceptions that may
                          be generated by providing customers a list of tax law topics
                          answered by TAC employees. For example, management
                          believes providing a list of tax law topics to customers may
                          give the appearance that customers must determine on their
                          own the types of services the IRS provides rather than being
                          assisted by TAC employees. In addition, management
                          believes customers are unlikely to read a list containing tax
                          law topics.
                          Office of Audit Comment: We understand the IRS’ past
                          experience has shown that taxpayers do not read signs
                          displayed in the TACs. However, we still believe the IRS
                          should pursue having greeters ask taxpayers questions to
                                                                               Page 13
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                          determine their specific tax law issue. At a minimum, the
                          greeters could determine if the tax law issue related to
                          individual or business taxes, estate or trust taxes, etc. This
                          action would prevent some taxpayers from having to wait
                          before being informed that their questions cannot be
                          answered by TAC employees.




                                                                                 Page 14
       Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                                                                                   Appendix I


                         Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) provided accurate and timely responses to taxpayers’ tax law questions during the period
January through April 2004. In addition, we assessed whether IRS employees were professional
and courteous to the auditors that made anonymous visits to the Taxpayer Assistance Centers
(TAC). We also evaluated whether TAC addresses and office hours made available to taxpayers
were accurate, IRS employees adhered to operating guidelines on referral procedures, and all
taxpayers were provided an opportunity to participate in the customer satisfaction survey at the
TACs.
To accomplish our objectives, we:
I.      Determined whether the IRS provided quality service and accurate responses to tax law
        inquiries at the 63 TACs visited during the period January through April 2004. Auditors
        visited nine TACs in each of the seven areas. We judgmentally selected three large,
        medium, and small TACs from each of the seven areas based on the number of taxpayer
        visits and geographic proximity to each other to reduce travel time. We asked 250 tax
        law questions that an individual taxpayer1 might ask. The questions were based upon the
        scope of services for tax law assistance prescribed in the Fiscal Year 2004 Field
        Assistance (FA) Office guidelines.
II.     Determined whether IRS employees followed FA Office Operating Procedures to refer
        questions that were outside the scope of services they should have been trained to answer.
        In addition to scheduled visits, auditors completed visits to 29 additional TACs and asked
        98 questions that were beyond the IRS employees’ level of training. These TACs were
        also selected based on their geographical proximity to the TACs visited to ask in-scope
        questions.
III.    Determined the quality of services provided by the IRS employees.
IV.     Determined whether TAC addresses and office hours provided to taxpayers via the
        Internet, the toll-free telephone numbers, and the TACs’ automated telephone messaging
        systems matched information posted in the TACs.
V.      Determined whether Customer Survey Comment Cards were available at the TACs and
        offered to taxpayers.




1
 Individual taxpayers are nonbusiness taxpayers that file United States Individual Income Tax Returns
(Forms 1040, 1040A, or 1040EZ).
                                                                                                        Page 15
      Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Frank Jones, Audit Manager
Russell Martin, Audit Manager
Tanya Boone, Lead Auditor
Pamela DeSimone, Senior Auditor
Lena Dietles, Senior Auditor
Deborah Drain, Senior Auditor
Edie Lemire, Senior Auditor
Grace Terranova, Senior Auditor
Jerome Antoine, Auditor
Robert Baker, Auditor
Jean Bell, Auditor
Vacenessia Brown, Auditor
Andrea Hayes, Auditor
Kathy Henderson, Auditor
Patricia Jackson, Auditor
Mary Keyes, Auditor




                                                                                         Page 16
     Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Assistance, Relationships, and Education SE:W:CAR
Director, Strategy and Finance SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Field Assistance SE:W:CAR:FA
Director, Stakeholder Partnerships, Education, and Communication SE:W:CAR:SPEC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 17
      Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                                                                   Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
•   Taxpayer Burden – Potential; 53 incorrect answers to tax law questions (see page 4).
Methodology Used to Measure the Reported Benefit:
If the accuracy results for the 250 tax law questions we asked during the period January through
April 2004 are indicative of the actual responses taxpayers receive when they visit a Taxpayer
Assistance Center, we estimate 53 taxpayers could have received incorrect responses to tax law
questions.




                                                                                           Page 18
         Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                                                                                   Appendix V


              Accuracy Rates for States Visited During the 2004 Filing Season1




Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors

The 22 states visited in which auditors asked questions within the scope of service include
Alabama, Arizona, California, Colorado, Florida, Georgia, Illinois, Indiana, Kentucky, Maine,
Massachusetts, Missouri, Nevada, New Hampshire, New Jersey, New Mexico, New York,
North Carolina, North Dakota, Texas, Vermont, and Virginia.




1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                       Page 19
                  Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                                                                                           Appendix VI


                                         Accuracy Rates by Geographical Area
                                             January Through April 20041

                                Correctly                                             Incorrectly
             Correctly                            Correctly        Incorrectly                          Service Not        Questions
Area                     %    Answered but   %                %                  %    Referred to   %                  %
             Answered                             Referred          Answered                             Provided           Asked
                               Incomplete                                             Publication

  12            21       58        1         3       0        -        11        31       1         3       2          6        36
  23            18       50        4         11      7        19       6         17       0         -       1          3        36
   4
  3             25       69        1         3       3        8        7         19       0         -       0          -        36
   5
  4             22       61        1         3       4        11       4         11       1         3       4         11        36
  56            21       58        5         14      1        3        9         25       0         -       0          -        36
   7
  6             20       59        3         9       0        -        9         26       2         6       0          -        34
   8
  7             21       58        5         14      3        8        7         19       0         -       0                   36

Totals         148       59       20         8       18       7        53        21        4        2       7          3        250
         Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.




         1
           Percentages do not add to 100 due to rounding.
         2
           Area 1 states visited were Maine, Massachusetts, New Hampshire, New York, and Vermont.
         3
           Area 2 states visited were New Jersey, North Carolina, and Virginia.
         4
           Area 3 states visited were Alabama, Florida, and Georgia.
         5
           Area 4 states visited were Illinois, Indiana, and Kentucky.
         6
           Area 5 states visited were Missouri, North Dakota, and Texas.
         7
           Area 6 states visited were Arizona, Colorado, Nevada, and New Mexico.
         8
           Area 7 state visited was California.
                                                                                                                      Page 20
          Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                                                                                          Appendix VII


                                         Accuracy Rates by Tax Law Topic1
                                            January Through April 2004

                                                          Correctly                             Incorrectly
                                                                                                              Service2
                                 Questions   Correctly    Answered    Correctly   Incorrectly    Referred
        Tax Law Topics                                                                                          Not
                                  Asked      Answered        but      Referred     Answered         to
                                                                                                              Provided
                                                         Incomplete                             Publication
      Adjustment to Income          1        1 (100%)       ---          ---          ---           ---         ---
         Adoption Credit            2           ---         ---       1 (50%)      1 (50%)          ---         ---
            Alimony                 20       11 (55%)     4 (20%)        ---       5 (25%)          ---         ---
    Capital Gains and Losses        15        7 (47%)       ---       5 (33%)      2 (13%)          ---        1 (7%)
        Child Care Credit           3         2 (67%)       ---          ---          ---           ---       1 (33%)
          Child Support             7         2 (29%)     5 (71%)        ---          ---           ---         ---
         Child Tax Credit           21       16 (76%)       ---          ---       3 (14%)        1 (5%)       1 (5%)
           Dependents               29       25 (86%)       ---          ---       4 (14%)          ---         ---
       Earned Income Tax
                                    15       12 (80%)      1 (7%)        ---        1 (7%)          ---        1 (7%)
             Credit
        Education Credit            4         2 (50%)       ---          ---       2 (50%)          ---         ---
       Elderly Care Credit          2        2 (100%)       ---          ---          ---           ---         ---
          Filing Status             19       11 (58%)     4 (21%)     2 (11%)      2 (11%)          ---         ---
            Gambling                1        1 (100%)       ---          ---          ---           ---         ---
         Innocent Spouse            3           ---       3 (100%)       ---          ---           ---         ---
         Interest Income            7         2 (29%)       ---          ---       4 (57%)          ---       1 (14%)
                             3
      Itemized Deductions           22       12 (55%)       ---       3 (14%)      7 (32%)          ---         ---
        Medical Expenses            9         8 (89%)       ---          ---       1 (11%)          ---         ---
           Retirement               27       15 (56%)       ---       3 (11%)      6 (22%)        2 (7%)       1 (4%)
          Sale of Home              8         3 (38%)     1 (13%)     2 (25%)      1 (13%)       1 (13%)        ---
           Scholarship              20        7 (35%)       ---        1 (5%)      12 (60%)         ---         ---
      Social Security Income        14        9 (64%)     2 (14%)      1 (7%)       1 (7%)           ---       1 (7%)
      Student Loan Interest         1           ---         ---          ---       1 (100%)         ---         ---
    Source: Anonymous visits performed by Treasury Inspector General for Tax Administration auditors.


1
  Percentages do not add to 100 due to rounding.
2
  The Internal Revenue Service employee did not answer the question because he or she was not qualified, did not
have enough time since the Taxpayer Assistance Center was closing soon, or was not available to answer the
question.
3
  Itemized Deductions include Charitable Contributions, Refinancing Points, and Uniforms.
                                                                                                                Page 21
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved

                                                                Appendix VIII


             Management’s Response to the Draft Report




                                                                       Page 22
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved




                                                                       Page 23
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved




                                                                       Page 24
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved




                                                                       Page 25
Taxpayer Experience at the Taxpayer Assistance Centers Could Be Improved




                                                                       Page 26
